CERTIFICATE OF COMPLIANCE WITH RULE 33
I, Jonathan P. Babb, Special Deputy Attorney General for the State of North
Carolina and a member of the bar of this Court, hereby certify that the State of North
Carolina’s petition for writ of certiorari is in compliance with Rule 33 in that it is
printed in twelve-point Century Schoolbook font and it neither exceeds 40 pages, nor
does the body to the brief, including footnotes and citations, contain more than 9,000
words as indicated by Microsoft Word, the program used to prepare the brief.
This the 14th day of May, 2021.
_______________________________
Jonathan P. Babb
Special Deputy Attorney General
Counsel of Record
North Carolina Department of Justice
Post Office Box 629
Raleigh, North Carolina 27602
Telephone: (919) 716-6500
jbabb@ncdoj.gov

